NO. ___________
IN THE SUPREME COURT OF THE UNITED STATES
JOSE SANCHEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Jose Sanchez, pursuant to 18 U.S.C. § 3006A(b) and Rule 39 of the
United States Supreme Court, asks leave to file the attached Petition for Writ of
Certiorari without prepayment of costs and to proceed in forma pauperis.

The

Federal Public Defender’s Office was appointed to represent Mr. Sanchez in the
United States District Court for the Western District of Arkansas and the United
States Court of Appeals for the Eighth Circuit pursuant to an appointment under the
Criminal Justice Act of 1964, as amended.
Dated this 23rd day of October, 2020.
Respectfully submitted,
BRUCE D. EDDY
Federal Public Defender
Western District of Arkansas
_/s/ C. Aaron Holt_______________
C. Aaron Holt
Research and Writing Specialist

Counsel of Record
112 W. Center Street, Ste. 300
Fayetteville, Arkansas 72701
(479) 442-2306
aaron_holt@fd.org

